                   U.S. Department of Agriculture

                      Office of Inspector General
                             Great Plains Region




         Audit Report

    Food and Nutrition Service
  National School Lunch Program
Cost-Reimbursable Contracts with a
Food Service Management Company




                         Report No. 27601-15-KC
                                 December 2005
.
Executive Summary
National School Lunch Program – Cost-Reimbursable Contracts with a Food
Service Management Company (Audit Report No. 27601-15-KC)

Results in Brief               A Food Service Management Company (FSMC) is a commercial
                               enterprise or a nonprofit organization, which is or may be contracted
                               with by a school food authority (SFA) to manage any aspect of the
                               school food service to include purchasing food products on behalf of
                               the SFA and subsequently billing the SFA for the purchases. We
                               initiated this audit to determine whether the FSMC passed on cost
                               savings on food purchases to SFAs when required to do so by contract.
                               We also conducted the audit to obtain information for the Food and
                               Nutrition Service (FNS) to consider when developing their policies or
                               procedures on the treatment of purchase incentives.

                               In 106 contracts with SFAs, our audit determined that the corporation
                               did not pass on at least $1.3 million in savings it received although the
                               106 contracts specifically required the crediting back of the funds. The
                               savings came from incentives, discounts, rebates, etc., that the FSMC
                               negotiated from food manufacturers. 1 Although these manufacturers
                               did not sell directly to the FSMC, they did sell to distributors from
                               which the corporation bought food for the SFAs. The SFAs then
                               reimbursed the school food service sector of the corporation for the
                               amounts it had bought from the distributors. This price did not reflect
                               the incentives received earlier up the supply chain from the
                               manufacturers.

                               In June 2002, we discussed the issue with FSMC officials. They
                               agreed that manufacturers had given the corporation incentives that it
                               kept rather than crediting them back to the SFAs. Figures they
                               provided indicated that the FSMC retained over $6 million in
                               incentives between September 1998 and December 2001. In response
                               to our question as to whether they had credited any of the $6 million in
                               incentives to the SFAs, company officials stated that none of the
                               incentives were credited back to the SFAs. We were unable to
                               determine how much of this amount beyond the $1.3 million above
                               would have gone to the 106 SFAs, per the contracts, because the
                               company’s accounting system did not break out cost allowances to
                               individual SFAs (see finding 1).


1
  For the purpose of this report, FSMC is used to apply to both the parent corporation and its school food service
sector. The parent corporation generally contracted with food manufacturers and distributors while its school food
service sector contracted to be the FSMC for individual school districts. In addition, the local, regional, and national
volume allowances, rebates, credits, discounts, cash prompt payment discounts, signing bonuses, administrative
fees, and other volume purchase incentives, are considered to be one and the same.
USDA/OIG-A/27601-15-KC                                                                                          Page i
                           At a later meeting in August 2002, FSMC officials asserted that SFAs
                           received lower prices overall because of the corporation keeping the
                           purchase incentives. In addition, they stated that the FSMC was
                           subsidizing its administrative fees by keeping the purchase incentives.
                           To verify their assertion concerning the lower prices, we compared
                           invoices from a distributor (the FSMC’s basis for billing the SFA) to
                           the FSMC and invoices from the same distributor to a second FSMC
                           customer for the same 2 months. We found that for 35 identical items,
                           the FSMC paid between $0.19 and $13.31 more per item for 29 items
                           than the second FSMC. The second FSMC paid between $0.02 and
                           $0.76 more per item for six items than the FSMC. In other words, in
                           addition to not receiving incentives, SFAs were likely paying more
                           with the FSMC.

                           In addition, we obtained an SFA’s comparison of FSMC responses to
                           its request for proposal, which stated that cost accounted for 20 of
                           100 maximum points in evaluating the proposal. We added the
                           purchase incentives the FSMC received for purchases for this SFA for
                           the school year ended June 30, 2001, to the management fees. We
                           determined that with the purchase incentives added to the FSMC’s
                           management fee, its total projected costs exceeded that of the other
                           FSMC bidders. We found no indication that the SFA officials knew at
                           the time of contract award that the FSMC was planning to obtain and
                           keep purchase incentives on purchases made on behalf of the district.

                           When we requested documents to support one SFA’s reimbursements
                           paid to the FSMC, a manager with its school food service sector
                           provided invoices the company received from the distributors, which
                           did not reflect the incentives received from manufacturers. In addition,
                           the State agencies responsible for overseeing the SFAs’ contracts did
                           not have procedures in place to ensure that the SFAs included and
                           enforced the incentive provisions. Most of the State agencies stated
                           that the SFAs were responsible for ensuring that the contracted FSMCs
                           complied with contract requirements.

                           Federal regulations require “a contract administration system which
                           ensures that contractors perform in accordance with the terms,
                           conditions, and specifications of their contracts or purchase orders.” 2
                           FNS noted that current Federal regulations provide that the parties to
                           the contract (i.e. SFA and FSMC) are responsible for ensuring the
                           enforcement of the terms and conditions of the contract. FNS has
                           proposed Federal regulations 3 to clarify that State agencies must check
2
  7 Code of Federal Regulations (CFR) 3016.36(b)(2). (Regulations in 7 CFR 3016 apply USDA-wide while
regulations in 7 CFR 210 apply solely to FNS programs.)
3
  Federal Register Volume 69, Number 250, page 78340 dated December 30, 2004, to amend 7 CFR 210, 215, and
220.
USDA/OIG-A/27601-15-KC                                                                            Page ii
                   SFA contracts for compliance on a yearly basis. The proposed Federal
                   regulations also require that companies providing cost reimbursement
                   food management services identify all discounts, rebates, and other
                   applicable credits when billing an SFA.

Recommendations
In Brief           We recommended that FNS reinforce that the State agencies need to
                   instruct the SFAs to take action to enforce the contract terms and
                   recover incentives due to the SFAs’ food service accounts.

Agency Response    The agency response showed general agreement with the audit
                   conclusions with the exception of the treatment of prompt payment
                   discounts. FNS stated it only prohibits the retention of earned income
                   or prompt payment discounts earned by the FSMC when the amounts
                   are earned using funds advanced by the SFA. We incorporated their
                   comments in the applicable sections of the report and attached a copy
                   of the comments as exhibit F.

OIG Position       We continue to believe that the costs billed by the company to its SFAs
                   with cost-reimbursable contracts should be the net costs incurred by the
                   company for food, beverages, and supplies purchased on behalf of the
                   SFA’s nonprofit food service. The prompt payment discounts are a
                   reduction in the costs incurred by the company for the purchased items.
                   These amounts should be treated no differently than any other volume
                   purchase incentive unless stipulated by contract terms. While the
                   majority of the 106 contracts contained a general requirement that
                   “discounts” should be credited to the SFA, a contract that did
                   specifically mention prompt payment discounts provided that these
                   discounts should also be credited to the SFA. In the absence of specific
                   contract terms, we believe deference needs to be given so that these
                   amounts accrue for the benefit of the SFAs. Lastly, we are concerned
                   that allowing the company to keep one type of discount will lead to the
                   labeling of all discounts and rebates as the type of discount that the
                   company is allowed to keep and continuation of the current practices by
                   retaining discounts and understating the cost of management fees or
                   other costs in contract proposals may inhibit competition among
                   FSMCs.




USDA/OIG-A/27601-15-KC                                                             Page iii
Abbreviations Used in This Report

CFR                Code of Federal Regulations

FNS                Food and Nutrition Service

FSMC               Food Service Management Company

FY                 Fiscal Year

IFB                Invitation for Bid

NSLP               National School Lunch Program

OGC                Office of the General Counsel

OIG                Office of Inspector General

OMB                Office of Management and Budget

RFP                Request for Proposal

SBP                School Breakfast Program

SFA                School Food Authority

USDA               U.S. Department of Agriculture




USDA/OIG-A/27601-15-KC                               Page iv
Table of Contents


Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ iv

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 5

    Section 1. Contract Compliance ............................................................................................ 5

        Finding 1             Contract Provisions Were Not Enforced ....................................................... 5
                                 Recommendation 1 ................................................................................ 7
                                 Recommendation 2 ................................................................................ 9

General Comments ..................................................................................................................... 10

Scope and Methodology.............................................................................................................. 12

Exhibit A – Summary of Monetary Results ............................................................................. 15
Exhibit B – States We Contacted............................................................................................... 16
Exhibit C – Purchasing Incentives Data Provided by an FSMC............................................ 17
Exhibit D – FSMC Flow of Money and Food ........................................................................... 18
Exhibit E – State Agency Policies and Procedures over SFA Procurement.......................... 20
Exhibit F – FNS Response to the Draft Report........................................................................ 24

Glossary of Terms ....................................................................................................................... 26




USDA/OIG-A/27601-15-KC                                                                                                            Page v
Background and Objectives
Background                     Food and Nutrition Service (FNS), an agency of the U.S. Department
                               of Agriculture (USDA), administers the National School Lunch
                               Program (NSLP) and the School Breakfast Program (SBP). FNS enters
                               into written agreements with a State agency, usually a State’s
                               Educational Agency, which administers the program Statewide. The
                               State agency is required to perform program oversight through
                               monitoring and assisting School Food Authorities (SFAs) in their
                               operation of the NSLP/SBP at the local level.

                               Federal regulations permit SFAs to contract with Food Service
                               Management Companies (FSMCs) to manage their food service
                               operations. Although management companies can provide most of the
                               routine administration of the food service operations, the SFA retains
                               the responsibility of ensuring that food operations comply with Federal
                               regulations.

                               An SFA solicits bids from management companies through issuing
                               either a request for proposal (RFP) or invitation for bid (IFB) that
                               details the contract requirements. In a cost-reimbursable contract,
                               management companies can make purchases on behalf of the SFA and
                               submit the invoices to the SFA for payment. FNS guidance provides
                               that these contracts should require that certain types of benefits accrue
                               back to the SFA. Under a cost-reimbursable contract, any discounts
                               and rebates the management companies may receive that would reduce
                               the cost of goods purchased should be passed along to the SFAs, as
                               these represent a reduction in the actual costs involved in preparing the
                               meals.

                               State agencies have certain monitoring responsibilities. Federal
                               regulations 4 require State agencies to review each contract between an
                               SFA and an FSMC annually to ensure compliance with Federal
                               requirements. The State agency is required to perform an onsite review
                               of each SFA contracting with an FSMC at least once during each
                               5-year period. Such reviews shall include an assessment of the SFA’s
                               compliance with Federal regulations covering SFA contracts with
                               FSMCs.

                               The State agency is encouraged to conduct such a review when
                               performing Coordinated Review Effort reviews, which are onsite



4
    7 Code of Federal Regulations (CFR) 210.19(a)(6).
USDA/OIG-A/27601-15-KC                                                                           Page 1
                           administrative reviews the State agency is required to perform at each
                           SFA at least once during each 5-year period. 5

                           Federal regulations 6 allow local governments operating USDA
                           entitlement programs to use their own procurement procedures that
                           reflect applicable State and local laws and regulations, as long as those
                           procedures are consistent with the requirements found in 7 CFR
                           3016.36(b) through (i) and 3016.60(b) through (c). These Federal
                           regulations state that costs or prices based on estimated costs for
                           contracts under grants are allowable only to the extent that costs
                           incurred or cost estimates, included in negotiated prices, are consistent
                           with Federal cost principles referred to in Federal regulations. 7 These
                           Federal regulations state that Federal cost principles applicable to State
                           and local governments are located in Office of Management and
                           Budget (OMB), Circular A-87, Cost Principles for State and Local
                           Governments. OMB Circular A-87, in Attachment A, Section C,
                           paragraphs 1i and 4a, stipulates that to be allowable, a cost must be the
                           net of all applicable credits, such as purchase discounts, rebates, or
                           allowances. FNS’ interpretation and position were that the cost
                           principles of OMB Circular A-87 applied to contracts entered into by
                           SFAs, or their agents, and contractors. Since FNS believed that the
                           OMB Circular A-87 cost principles were applicable to contracts
                           between SFAs and FSMCs, it had not codified this requirement in
                           Federal regulations.

                           In a previous audit report, we reported that of 19 SFAs reviewed
                           nationwide with cost-reimbursable contracts, 7 did not receive credit
                           for the discounts and rebates their two management companies received
                           on purchases. 8 We attributed this to a lack of mandated specific
                           contractual terms relating to discounts and rebates, which enabled the
                           FSMCs to use contract terms that allowed them to retain the discounts
                           and rebates. In addition, we reported that FNS had not issued clear
                           monitoring procedures in Federal regulations for State agencies to
                           follow in determining exactly how an FSMC should pass through the
                           value of discounts and rebates. FNS advised that OMB’s position is
                           that FNS cannot mandate specific language in a contract between the
                           FSMC and the SFA. This is why FNS has proposed Federal
                           regulations that focus on defining allowable costs in the program.

                           The previous report recommended FNS:



5
  7 CFR 210.18 (b)(1) and (2), and (c)(1).
6
  Final rule, effective August 14, 2000, for 7 CFR 3015, 3016, and 3019.
7
  7 CFR 3016.22.
8
  Audit 27601-27-CH, “NSLP – Food Service Management Companies,” issued April 30, 2002.
USDA/OIG-A/27601-15-KC                                                                        Page 2
                   (1) Amend its Guidance for School Food Authorities to identify
                       specific contract terms that a State agency and SFA must use to
                       ensure that FSMCs comply with all applicable competitive
                       procurement procedures that should result in net costs being
                       charged to an SFA so that the SFA, and not the FSMC, receives
                       the benefit of cost reductions in the form of discounts, rebates, and
                       allowances;

                   (2) Amend Federal regulations to require that State agencies include
                       language in their RFP prototypes that require contract review by
                       State officials prior to the SFA signing and implementing a
                       management company contract;

                   (3) Amend Federal regulations and Guidance for State Agencies to
                       require each State agency to annually review and approve each
                       contract between any SFA and management company to ensure
                       compliance with all the provisions and standards set forth in 7 CFR
                       210.16, before contract execution; and

                   (4) Notify all FNS regional offices to inform their State agencies that
                       all new contracts must require that only costs net of all discounts or
                       rebates are allowable costs to be charged to the SFA’s nonprofit
                       food service account and that any current contracts that do not
                       contain this requirement must be rebid as soon as possible.

                   In its replies to our recommendations, FNS agreed to amend and
                   reissue revised guidance for SFAs to help ensure that FSMCs comply
                   with competitive procurement procedures that should result in net costs
                   being charged to an SFA and contracts were to require that only costs
                   net of all discounts or rebates were allowable. FNS later obtained our
                   agreement to change their management decisions on amending the
                   guidance to “pursuing regulatory action to ensure that SFA contracts
                   contain provisions requiring FSMCs to charge only allowable costs that
                   are net of credits, discounts, and rebates.” These recommendations are
                   still awaiting final action.

                   During the first quarter of Fiscal Year (FY) 2003, FNS received an
                   interpretation from OMB regarding the applicability of the
                   requirements of OMB Circular A-87 to the contracting activities
                   between SFAs and FSMCs. OMB personnel verbally told FNS and the
                   Office of the General Counsel (OGC) that they believed Circular
                   A-87 provisions did not apply to the contracts between SFAs and
                   FSMCs and the existing Federal regulations (alone) could not govern
                   the FSMC’s actions (or similar third parties) without the specific
                   requirements being stated in the contract’s language. In order to
                   enforce compliance, FNS would need to codify in Federal regulations
USDA/OIG-A/27601-15-KC                                                                Page 3
                         that costs charged to SFAs must be allowable and net of any discounts,
                         rebates, and other allowances.
                         FNS distributed a memorandum, 9 which stated its position on the
                         crediting of discounts and rebates in cost-reimbursable contracts
                         remained unchanged. FNS stated that it strongly encourages, but does
                         not require, that all cost-reimbursable contracts include provisions to
                         ensure SFAs are only charged net, allowable costs. FNS further stated
                         that OMB and OGC have made it clear that State agencies and SFAs
                         can impose compliance with net cost requirements through contractual
                         terms. FNS has proposed a change to Federal regulations to prohibit
                         SFAs from using funds in the nonprofit school food service account for
                         expenditures made under any cost-reimbursable provisions of a
                         contract that permits the contractor to receive payments in excess of the
                         contractor’s actual net allowable costs. Such net allowable costs must
                         include, but are not limited to, discounts and rebates to the contractor.
                         During fieldwork for two related audits, 10 we became aware that the
                         FSMC was receiving discounts and rebates on purchases made for the
                         school food service programs of its contracted SFAs in Missouri. In
                         discussions with FNS Headquarters officials, it was determined that we
                         would conduct an audit of contracts between the FSMC and its SFAs to
                         establish the number of contracts that specified that applicable purchase
                         incentives be passed through to the SFAs and whether the FSMC was
                         in compliance with these contract provisions.

                         The FSMC reported it was the world’s largest food service company
                         and had FY 2003 revenues of $6 billion throughout the United States
                         and Canada. In 2004, the FSMC reported providing food service to
                         over 500 school districts in the United States, serving over 1.5 million
                         meals daily.
Objectives               Our objective was to determine whether the FSMC passed on cost
                         savings to SFAs for whom it had contracted to purchase food, and to
                         obtain information for FNS to consider when developing their policies
                         or procedures on the treatment of purchase incentives.




9
 A July 9, 2004, memorandum addressed to all Regional Directors, Child Nutrition Programs.
10
 Audit 27601-13-KC, dated March 2002, and Audit 27601-14-KC, Food Service Management Company Cost
Reimbursable Contracts in Missouri, dated December 2002.
USDA/OIG-A/27601-15-KC                                                                     Page 4
Findings and Recommendations
 Section 1. Contract Compliance


Finding 1                     Contract Provisions Were Not Enforced

                              SFAs did not enforce contract provisions that required the FSMC to
                              deduct incentives it received when purchasing food for SFAs from the
                              price it charged for that service. 11 Generally, the State agencies
                              charged with overseeing the SFAs indicated that the SFAs themselves
                              were responsible for enforcing the terms of their contracts. There were
                              no procedures in place, however, to monitor whether or not the SFAs
                              were doing so for any of the 22 State agencies we examined. As a
                              result, where contract language did specify a return of incentives to the
                              local SFA, 106 SFAs across 8 States paid the FSMC at least
                              $1.3 million more than called for by their contracts.

                              Federal regulations generally require grantees and subgrantees to
                              maintain a contract administration system that ensures that contractors
                              perform in accordance with the terms of their contracts. 12 Although
                              there are general oversight requirements, no specific Federal regulation,
                              however, directed either State agencies or SFAs to monitor their
                              contracts for compliance. While Federal regulations in 7 CFR 210 only
                              permit SFAs to use nonprofit school food service account funds for
                              allowable costs, current Federal regulations do not define the nature,
                              terms, or conditions of the language related to allowable costs that
                              should have been included in the contract between the SFA and the
                              FSMC. FNS has published a proposed Federal regulation 13 that would
                              require solicitation and contract documents include specific terms and
                              conditions. The proposed Federal regulation would require State
                              agencies, on a yearly basis, to review FSMC contracts before the
                              execution of the contract by the SFA and FSMC.

                              At our behest, the FSMC provided data that showed it received over
                              $6 million in incentives on purchases made for 298 SFAs in 22 States
                              between September 1998 and December 2001. During meetings and
                              other communications, company officials stated that none of the
                              $6 million was passed on to the SFAs. See exhibit D for a flowchart
                              showing the flow of money and food to and from the parent
                              corporation, its school food service sector, its vendors and distributors,

11
   In addition, the local, regional, and national volume allowances, rebates, credits, discounts, cash prompt payment
discounts, signing bonuses, administrative fees, and other volume purchase incentives, are considered to be one and
the same.
12
   7 CFR 3016.36(b)(2), January 1, 2001, edition.
13
   Federal Register Volume 69, Number 250, page 78340 dated December 30, 2004.
USDA/OIG-A/27601-15-KC                                                                                      Page 5
                             and school districts. Although 142 of the contracts did not have
                             provisions that required the corporation to pass on incentives, 14 the
                             remaining 106 did.

                             Seven State agencies did not provide us with SFA contracts in place
                             during the audit scope (FY 1998-2002) for the remaining 50 SFAs.
                             Generally, the agencies advised us that they had not kept the contract
                             documents for the required retention period, or had disposed of
                             documents still in effect once a contract was extended. Federal
                             regulations require State agencies to retain their records for a period of
                             3 years after final claims and reports for a given FY. 15

                             We were able to break down most, but not all, of the $6 million in
                             incentives to purchases made on behalf of particular SFAs. The
                             FSMC’s accounting system recorded all of the cash discounts it had
                             received for the scope of our audit (FY 1998-2002). The system
                             maintained the total volume allowances (incentives given for buying a
                             certain quantity), but only broke down the figures for individual SFAs
                             for FYs 2001 and 2002. Even those 2 years, however, did not include
                             local rebates and national distributor allowances.

                             From our review of the company’s accounting records, we were able to
                             break out the $6 million in the following manner: $1.3 million in
                             incentives for purchases made on behalf of 106 SFAs with contracts
                             that required incentives to be passed on to the schools; $1.8 million in
                             incentives for SFAs that did not have contracts requiring the firm to
                             pass on the incentives; $600,000 in incentives for the 50 SFAs where
                             copies of the contract could not be obtained; and $2.3 million in
                             incentives that could not be attributed to any SFA due to a lack of
                             documentation in the company’s accounting records.

                             During a conference with FSMC officials on August 6, 2002, they
                             asserted that all SFAs received lower overall prices because the
                             corporation kept the incentives. In addition, they stated that the
                             company was subsidizing (lowering) its administrative fees charged to
                             the SFAs by keeping the purchase incentives. To verify their assertion
                             concerning the lower prices, we compared invoices from a distributor
                             (the FSMC’s basis for billing the SFA) to the FSMC and invoices from
                             the same distributor to a second FSMC customer for the same
                             2 months. We found that for 35 identical items, 16 the FSMC paid

14
   We noted that 7 of the 142 contracts required the SFAs to select a food vendor but they did not. Instead, they
allowed the FSMC to choose the vendor with the effect that incentives that might have accrued to the SFA went to
the FSMC.
15
   7 CFR 210.23(c).
16
   In order to ensure the items were identical, emphasis was placed on identifying items with the same vendor
number and brand name ordered by both FSMCs.
USDA/OIG-A/27601-15-KC                                                                                   Page 6
                   between $0.19 and $13.31 more per item for 29 items than the second
                   FSMC. The second FSMC paid between $0.02 and $0.76 more per
                   item for six items than the FSMC. Therefore, contrary to the FSMC’s
                   assertion, based on our analysis, SFAs were more likely than not to be
                   paying more with the FSMC than with the second FSMC, even though
                   the FSMC kept all the incentives. Accordingly, we conclude little
                   creditability in the FSMC’s assertion to us.

                   In addition, the treatment of incentives could have affected the outcome
                   of contract awards. We obtained an SFA’s comparison of FSMC
                   responses to its request for proposal, which stated that cost accounted
                   for 20 of 100 maximum points in evaluating the proposal. We analyzed
                   the amount of purchase incentives the FSMC received for purchases for
                   this SFA in the school year ended June 30, 2001, along with the
                   management fees received. We determined that with the purchase
                   incentives considered along with the FSMC’s charges for management
                   fees, these total costs exceeded that of the other FSMC bidders. We
                   found no indication that the SFA officials knew at the time of contract
                   award that the FSMC was planning to obtain and keep purchase
                   incentives on purchases made on behalf of the district. However, the
                   retention of these incentives enabled the FSMC to offer lower costs,
                   management fees, etc., than it would have been able to had it been
                   required to give incentives to the SFAs.

                   Because we have already provided recommendations in the prior report
                   to improve controls and amend Federal regulations, we are not offering
                   any further recommendations in these areas in this report.

Recommendation 1

                   Direct the State agencies to provide oversight to ensure the applicable
                   SFAs take action to enforce the contract terms and recover the purchase
                   incentives due to the SFAs’ food service account.

                   FNS Response.

                   On October 29, 2005, FNS wrote that they agreed with our conclusions
                   in a number of areas within the report and would be working to
                   implement corrective action for the problems noted. However, FNS
                   disagreed with the Office of Inspector General’s (OIG) treatment of
                   prompt payment discounts. FNS noted that OIG refers to these
                   payments as examples of volume purchase incentives that the FSMC is
                   not entitled to receive either by contract stipulation between the SFA
                   and the FSMC or by Federal policy. While OIG is correct in stating
                   that the contract between the SFA and FSMC will control the
                   disposition of such amounts, in the absence of specific contract terms,
USDA/OIG-A/27601-15-KC                                                              Page 7
                             Agency policy only prohibits the retention of earned income or prompt
                             payment discounts earned by the FSMC when the amounts are earned
                             using funds advanced by the SFA.

                             In addressing OIG’s findings, we will direct State agencies to work
                             with their SFAs to evaluate FSMC contract compliance pursuant to the
                             terms of those contracts. As in any similar situation, when unallowable
                             nonprofit school food service account expenditures are identified, one
                             element of the accepted corrective action is the restoration of these
                             amounts to the affected nonprofit school food service accounts.
                             However, we cannot require that State agencies direct SFAs to restore
                             funds to the nonprofit school food service accounts for expenditures
                             that are otherwise allowable.

                             OIG Position.

                             We continue to believe that the costs billed by the company to its SFAs
                             with cost-reimbursable contracts should be the net costs incurred by the
                             company for food, beverages, and supplies purchased on behalf of the
                             SFA’s nonprofit food service. The prompt payment discounts are a
                             reduction in the costs incurred by the company for the purchased items
                             and should be treated no differently than any other volume purchase
                             incentive unless specified by contract terms. This includes where
                             purchases for school food service accounts are unique and/or represent
                             a preponderance of the purchases made by the FSMC. The majority of
                             the 106 contracts stated only that “discounts” should be credited to the
                             SFA and did not differentiate between prompt payment and sales
                             discounts. In addition, one contract that did specifically mention
                             prompt payment discounts stated that these discounts should also be
                             credited to the SFA. Lastly, we are concerned that allowing the
                             company to keep one type of discount will lead to the labeling of all
                             discounts and rebates as the type of discount that the company is
                             allowed to keep. In our view, deference should be given so that the
                             term “discounts” as used in these contracts is all-inclusive.

                             The FNS response stated that its Agency policy only prohibits the
                             retention of earned income or prompt payment discounts earned by the
                             FSMC when the amounts are earned using funds advanced by the SFA.
                             In their earlier correspondence on this subject, FNS provided three
                             non-USDA documents 17 as support for their policy regarding the
                             prompt payment discounts. However, FNS provided no written USDA
17
  Decision of the Comptroller General in the matter of Lankford-Sysco Food services, Inc.; Sysco Food Services of
Arizona, Inc., dated January 6, 1997; Decision of the Comptroller General in the matter of Government Printing
Office - Treatment of Prompt Payment Discounts dated August 28, 1998; and U.S. Department of Health and
Human Services, Departmental Appeals Board Decision No. 400, March 29, 1983, Maryland Department of Health
and Mental Hygiene.
USDA/OIG-A/27601-15-KC                                                                                   Page 8
                        directives or OGC decisions to support this policy; FNS could not
                        provide evidence that it ever distributed this policy in formal written
                        correspondence internally or externally to State agencies and SFAs.
                        Our position remains unchanged that the terms of the written contracts
                        should control the disposition of these amounts. Accordingly, these
                        amounts should be restored to nonprofit food service accounts where
                        contract terms stipulate their unallowability. In order to consider the
                        management decision for this recommendation, we need to be informed
                        of the specific actions FNS plans to direct the States to take and
                        timeframes to accomplish them.

Recommendation 2

                        In accordance with Federal regulations, 18 instruct the 7 State agencies
                        that did not retain the 50 SFA contracts to develop and implement those
                        procedures necessary to ensure original contracts with FSMCs are
                        retained for as long as they are effective, including the time covered by
                        any extensions and/or renewals.

                        FNS Response.

                        On October 29, 2005, FNS wrote that they agreed with the auditors’
                        conclusions in a number of areas within the report and would be
                        working to implement corrective action for the problems noted.

                        OIG Position.

                        In order to achieve a management decision for Recommendation 2, we
                        need to be informed of the corrective actions taken or planned, and the
                        timeframes for implementation of the corrective action.




18
     7 CFR 210.23(c).
USDA/OIG-A/27601-15-KC                                                                    Page 9
General Comments
                                     During our review, we observed other conditions regarding
                                     reimbursements for “a la carte” meals (separate prices for each
                                     item on a menu) that merit consideration by FNS. It is the policy
                                     of FNS to encourage the service of reimbursable meals. Two State
                                     agencies did not have policies and procedures to prevent SFAs
                                     from accepting questionable contract clauses that encouraged
                                     consumption of “a la carte” meals rather than reimbursable
                                     program meals. To be reimbursable under the NSLP/SBP, a meal
                                     served to an eligible child must meet minimum nutritional
                                     standards and be priced as a unit. 19 In the FSMC contracts we
                                     reviewed, the contracts provided a meal equivalency rate that was
                                     used to convert “a la carte” and other nonreimbursable sales
                                     (adults, catering, etc.) into meal equivalents. The contracts also
                                     provided factors for converting reimbursable breakfasts and snacks
                                     into meal equivalents. The standard conversion factors were two
                                     breakfasts or three snacks equal one meal equivalent. According
                                     to the contract provisions, the FSMCs earned their administrative
                                     and management fees based on the number of reimbursable meals
                                     and meal equivalents provided. In the contracts reviewed, these
                                     fees were to be increased when the FSMC reached certain targets
                                     that included meal equivalents. Incentive fees that are based on the
                                     service of meal equivalents that are calculated at less than the free
                                     meal reimbursement rate plus the value of entitlement donated
                                     foods reward the service of “a la carte” meals, not reimbursable
                                     meals, which does not support FNS’ policy.

                                     •   In one State, an SFA signed a food service contract that
                                         included an incentive clause that provided escalating
                                         management fees to a third FSMC for ranges of increases in
                                         meals served, including meal equivalents for “a la carte” meals.
                                         A State agency official stated a belief that the State agency did
                                         not have the authority to question the SFA’s judgment. In
                                         essence, the SFA paid additional management fees to
                                         encourage meals not meeting program requirements.

                                         This SFA’s contract obtained the number of meal equivalents
                                         by dividing the total of its gross sales, including cash for adult
                                         meals, “a la carte” meals, milk, snack bar, catering,
                                         conferences, and other functions sales (excluding reimbursable
                                         lunches,) by $2. This meal equivalency rate was less than the


19
     7 CFR 210.2, 210.10(a), and 7 CFR 220.7(e)(3).
USDA/OIG-A/27601-15-KC                                                                            Page 10
                             free meal reimbursement rate plus the per meal entitlement rate
                             for donated foods.

                         •   Five SFAs in another State signed contracts with the first
                             FSMC that contained provisions for increased fees after
                             reaching a specified level for meals and meal equivalents. For
                             example, the contract between one of the five SFAs and the
                             FSMC for the school year ended in 2002, provided that the
                             FSMC shall invoice the SFA for a per-meal charge for all meal
                             and meal equivalents based upon the following scale for the
                             management fee: $0.0199 for 0 to 1,400,000 meals, and
                             $0.0599 for 1,400,001 and above meals. This contract clause
                             resulted in the SFA paying an additional $14,977 in
                             management fees during the school year ended in 2002. The
                             availability of the higher management fee for meal equivalents
                             provided an incentive to the FSMC to serve “a la carte” menu
                             items rather than reimbursable meals.

                             The contract for the previously mentioned SFA states that for
                             management fee purposes, the number of meal equivalents
                             shall be determined by dividing the total of all sales, by the
                             student charge for a fully paid lunch at each level. Catering
                             equivalents would use the Middle School student charge. The
                             lunch charges were identified as follows: High School: $2.35,
                             Middle School: $2.00, and Elementary School: $1.65. The
                             total of all sales used in the calculation of meal equivalents
                             would include cash for adult meals, “a la carte” meals, milk,
                             snack bar, catering, conference, and/or any other function sales
                             (excluding reimbursable meals). The free lunch reimbursement
                             plus the value of entitlement donated foods for this same period
                             was $2.245.




USDA/OIG-A/27601-15-KC                                                              Page 11
Scope and Methodology
                  We initiated our audit by using the documents obtained from the FSMC
                  to determine the amount of volume purchase allowances and cash
                  discounts it reported as received on NSLP/SBP purchases for its
                  contracted SFAs during the period July 1, 1998, through
                  December 31, 2001.

                  •      We obtained information about the amount and scope of discounts
                         received by it and/or its subsidiary nationwide. The company
                         provided documents that primarily included contracts, pricing
                         sheets, discounts, and volume allowances received, broken down
                         by SFAs as cost centers and correspondence between the company
                         and its distributors and suppliers.

                  •      We also reviewed the documents obtained from the FSMC’s
                         headquarters to identify contracts between it and its school food
                         service sector and distributors and vendors, such as food
                         manufacturers.

                  •      After identifying the contracts, we reviewed them for contract
                         terms that provided for the FSMC to receive cash discounts,
                         volume allowances, and other purchase incentives for purchases
                         relating to the NSLP/SBP.

                  We also used information from a distributor for the FSMC and a second
                  FSMC customer and compared prices charged for food and supplies to
                  SFAs contracted with the FSMC’s school food service sector and SFAs
                  contracted with the second FSMC.

                  In addition, from the second FSMC, we obtained its distributor’s
                  invoices for purchases in 2 months of calendar year 2000 on behalf of an
                  SFA with whom the second FSMC had a cost-plus-a-fixed-fee contract.
                  We used the invoices to compare prices of 35 identical items purchased
                  by both the second FSMC and the cited FSMC.

                  We also obtained information from one of the FSMC’s vendors, a large
                  food manufacturer, to verify that it had paid volume allowances to the
                  FSMC.




USDA/OIG-A/27601-15-KC                                                            Page 12
                      In addition, we contacted State agencies in 22 States to obtain copies of
                      the contracts, and the related RFPs/IFBs, 20 between the FSMC and/or its
                      school food service sector and its 298 contracted SFAs identified in the
                      documents we received from the company. See exhibit B for a list of the
                      States.

                      •     We also requested information concerning their State laws,
                            policies, procedures, and memorandums issued to an SFA when
                            contracting with FSMCs, and the State agencies’ monitoring
                            efforts to ensure an SFA met program requirements and the FSMC
                            complied with contract terms.

                      •     We also requested information about any State agency reviews of
                            SFAs contracting with FSMCs, including the cited FSMC. We
                            reviewed all of the contracts, RFPs/IFBs, and other information
                            received from the State agencies.

                      Exhibit E illustrates the State agency policies and procedures they
                      provided applicable to our audit period and any changes made to them.

                      We reviewed the Federal requirements for the NSLP/SBP for SFAs
                      contracting with FSMCs to identify the FNS policies and operating
                      procedures established for the contracts. We also conducted our review
                      through interviews with officials of the FSMC and its school food
                      service sector, FNS National office officials, State agency officials, and
                      some SFA officials.

                      Also, we obtained billings of the FSMC for costs and fees from an SFA
                      for January 2001 through June 30, 2001, to determine if costs and
                      revenues projected by the FSMC for the school year ended
                      June 30, 2001, were verified by actual data.

                      We determined from our review of the information provided by the
                      FSMC that it received $3.1 million (rounded) in cash discounts and
                      $3 million (rounded) in volume allowances, for a total of over $6 million
                      in cash discounts and volume allowances based solely on purchases for
                      SFAs in 22 States during the period July 1, 1998, through
                      December 31, 2001.      Company officials stated that none of the
                      $6 million in cash discounts and volume allowances on the purchases for
                      SFAs was passed through to those SFAs.

                      However, the scope of our review was limited by the fact that we could
                      not determine from the material given to us by the FSMC on volume

20
   We asked only for contracts and RFPs/IFBs for SFAs that had contracted with the FSMC on a
cost-plus-a-fixed-fee basis.
USDA/OIG-A/27601-15-KC                                                                 Page 13
                  allowances what portion of the $3 million was attributable to purchases
                  for each individual SFA. Company officials stated that their computer
                  system could not identify the purchasing programs the company entered
                  into in its FYs ending August 30, 1999, and 2000. In a June 2002 letter
                  to us, the FSMC officials stated that, because they were not able to
                  reproduce the exact national volume allowances for FY 1999 and
                  2000 due to system limitations, they estimated the national volume
                  allowances for such FYs based upon companywide national volume
                  allowances earned through their top volume manufacturers in those
                  relevant years. In subsequent conversations, they stated that they were
                  able to use current year purchase programs to determine the
                  FY 2001 and FY 2002 first quarter national volume allowance
                  information due to proximity of the years. Company officials stated that
                  they could not go back to obtain information on the purchasing programs
                  for FYs 1999 and 2000 because the programs were purged from the
                  computer system when the purchasing programs for the new FY were
                  entered. They said that the company kept no history files.

                  In addition, the FSMC’s information on the other rebates included in the
                  $3 million amount was only presented on a yearly total basis and was
                  not broken down by SFA/cost center. As a result, the FSMC only broke
                  down the FY 2001 and FY 2002 first quarter national volume
                  allowances, which were $646,999 of the $3 million total in volume
                  allowances received by the company and not passed through to SFAs.
                  See exhibit C for a breakdown of how the company reported the
                  $3 million in volume allowances.

                  The audit was performed from October 2002 through June 2005. The
                  audit work was conducted in accordance with Government Auditing
                  Standards.




USDA/OIG-A/27601-15-KC                                                            Page 14
Exhibit A – Summary of Monetary Results
                                                                    Exhibit A – Page 1 of 1


Finding No.   Description                   Amount       Category
     1        FSMC Kept     Discounts   and $6,126,830   Funds To Be Put To Better
              Rebates                                    Use - Reviews of Contract/
                                                         Grant Agreements




USDA/OIG-A/27601-15-KC                                                           Page 15
Exhibit B – States We Contacted
                                                                                                     Exhibit B – Page 1 of 1


                                                              CONTRACT DID NOT
                        ALL INCENTIVES TO                        REQUIRE ALL     CONTRACT NOT
  STATE                 SFA PER CONTRACT                      INCENTIVES TO SFA    RECEIVED
 AGENCY                         1/                                    2/            3/, 4/, 5/
      Arizona                            2                                     5                0
    California                           0                                     1                0
  Connecticut                            1                                     5                5
       Florida                           0                                     1                0
        Idaho                            0                                     2                0
       Kansas                            0                                     1                0
Massachusetts                            0                                     1                0
     Michigan                           64                                     0               34
    Minnesota                            1                                     1                1
      Missouri                           2                                    12                0
         New                             0                                     1                0
   Hampshire
   New Jersey                                          0                                     46                             2
    New York                                           0                                      4                             0
         Ohio                                          0                                     11                             4
       Oregon                                          0                                      7                             0
 Pennsylvania                                         26                                      0                             3
 Rhode Island                                          0                                      3                             0
South Carolina                                         7                                      0                             0
      Texas 6/                                         0                                      0                             0
      Vermont                                          0                                      3                             0
  Washington                                           3                                     29                             0
    Wisconsin                                          0                                      9                             1
       Totals                                        106                                    142                            50

1/ SFAs signed contracts providing that all purchase incentives received by the FSMC were to be credited to the SFA.Where an
SFA had more than one contract within the audit period, we used the latest contract. We did not receive the older contracts
within the audit period for all 248 (298 less 50 in last column) SFAs.
2/ SFAs signed contracts that did not provide that all purchase incentives received by the FSMC would be credited to the SFA.
Seven SFAs signed contracts providing that the FSMC would not invoice for food or would purchase food and supplies from
vendors selected by the SFA but allowed the FSMC to do the purchasing and select the vendors. Where an SFA had more than
one contract within the audit period, we used the latest contract.
3/ SFA contract either not provided or the contract provided was active after the audit period.
4/ SFA contract not provided for one SFA in New Jersey, four SFAs in Ohio, and one SFA in Pennsylvania.
5/ Contracts active after the audit period for four SFAs in Connecticut, one SFA in New Jersey, and one SFA in Wisconsin did
not require all incentives to go to the SFA. Contracts active after the audit period for one SFA in Connecticut, 34 SFAs in
Michigan, one SFA in Minnesota, and two SFAs in Pennsylvania required all incentives to go to SFA.
6/ When contacted, Texas State agency officials stated that all eight SFAs had fixed-price contracts; therefore, we did not
request the contracts.

USDA/OIG-A/27601-15-KC                                                                                                 Page 16
Exhibit C – Purchasing Incentives Data Provided by an FSMC
                                                                             Exhibit C – Page 1 of 1


                 FY 2002,       FY 2001        FY 2000          FY 1999           Total
                 1st Quarter
National         $204,587       $ 442,412      $ 185,000        $ 70,000          $ 901,999
Volume
Allowances 1/
Local Rebates    $136,000       $ 275,000      $ 138,000        $ 130,000         $ 679,000
National         $103,000       $ 438,000      $ 485,000        $ 376,000         $1,402,000
Distributor
Allowances
Allocation
Subtotal (Total $443,587        $1,155,412     $ 808,000        $ 576,000         $2,982,999
Volume
Allowances
Received    by
FSMC)
Cash Discounts $400,462         $1,243,659     $1,039,670       $ 460,040         $3,143,831
Received    by
FSMC 1/
Total Incentives $844,049       $2,399,071     $1,847,670       $1,036,040        $6,126,830

Note: FYs run from September 1 through August 30.

1/ The FSMC included some entities, which were not SFAs with cost-plus-a-fixed-fee contracts
in its information on the purchasing incentives it received for NSLP/SBP related purchases. We
have adjusted this information for the related cash discount information for FYs 1999 through
FY 2002, 1st Quarter, and the related National Volume Allowance information for FYs 2001 and
FY 2002, 1st Quarter.




USDA/OIG-A/27601-15-KC                                                                    Page 17
     Exhibit D – FSMC Flow of Money and Food
                                                                                                        Exhibit D – Page 1 of 2

                                           FLOW OF MONEY AND FOOD 21


                            food                                                            School
Food                                           Distributor 2/             food              District
Manufacturer
                        $ (Payments
                          for food)                             Invoices 1/,
                                                                                                         $ (Payment of
                                                                Usage Reports
                                                                                                            Billings)
                     Negotiation of
                     Bid Price for                 $ (Payments
                     Food                          on invoices)


                                         Pricing
          $ (Payment of                  Sheets (Show                             Billings to SFA (Cost
             purchase                    Bid Price for                            for food (distributor
           Incentives)                   items)                                   invoices), labor, plus
                                                                                  fees)



          Usage Reports                                                                         School Food
                                            FSMC Corporate                                      Service Sector
          & Billing for
                                               Headquarters                                     of the FSMC
          Incentives



     1/ Invoices from distributor to the FSMC corporate headquarters include the bid price plus
     freight plus the distributor’s markup. Usage reports from the distributor to the FSMC corporate
     headquarters would detail the volume of each product purchased (e.g. 200 cases of shoestring
     french fries). The FSMC corporate headquarters would forward usage reports along with a bill
     for incentives to the food manufacturer.

     2/ We recognized that in some instances the distributor received a billback from the
     manufacturer. The distributor told us that they kept the billbacks and did not forward them on to
     the FSMC. Therefore, we ignored the billbacks for the purpose of our analysis.




     21
          Food in this illustration means food, beverages, and supplies used in school food services.
     USDA/OIG-A/27601-15-KC                                                                                          Page 18
   Exhibit D – FSMC Flow of Money and Food
                                                                                               Exhibit D – Page 2 of 2

FSMC                                                                         FSMC School
Corporate                     Food                                           Food Service           School Food
Headquarters                  Manufacturer        Distributor                Sector                 Authority (SFA)
Negotiates bid price and      Negotiates bid      Receives pricing sheets,   Contracts with         Contracts with FSMC
purchase incentives with      price and           showing the bid price      SFAs for operation     school food service
food manufacturer.            purchase            agreed upon with food      of their school food   sector for operation
Receives invoices and         incentives with     manufacturer, from         services.              of school food
usage reports from            FSMC corporate      FSMC corporate             Communicates           service. On-site
distributor.                  headquarters.       headquarters.              with FSMC              school food service
Consolidates and pays         Ships food, and     Upon receipt of food and   corporate              manager (usually
distributor invoices for      invoices to         invoices from food         headquarters.          employee of FSMC
purchases, less any           distributor.        manufacturer, pays food    Sends monthly          school food service
prompt payment discount,      Upon receipt of     manufacturer.              billings to SFAs for   sector) receives food
for all its (FSMC) sectors.   usage reports and   Sends food to SFA(s).      cost reimbursement     from distributor.
Sends usage reports and       billing from        Sends invoices for bid     and fees. Receives     Receives billings for
billing for purchase          FSMC corporate      price of food, and usage   SFAs’ payments on      cost reimbursement
incentives to food            headquarters,       reports to FSMC            billings.              plus fees from FSMC
manufacturer.                 sends payment       corporate headquarters.                           school food service
Receives payment for          for purchase        Receives single payment                           sector.
purchase incentives from      incentives to       from FSMC corporate                               Pays billings from
food manufacturer for the     FSMC corporate      headquarters for                                  FSMC school food
period.                       headquarters.       purchases by all FSMC                             service sector.
                                                  sectors for the period.

   Per the distributor’s contract with the FSMC, the corporation pays for all of its sectors, including
   its school food service sector, in one lump sum check to the distributor.

   The FSMC corporate headquarters negotiated contract terms, including the bid prices for food
   items, with food manufacturers. The contracts designated which distributors were used by the
   FSMC in particular areas. The FSMC corporate headquarters then sent bid pricing sheets to the
   distributor to use for invoicing food sent by the distributor to the FSMC’s contracted SFAs. The
   bid pricing sheets showed only the bid price negotiated between the FSMC and the
   manufacturer, not the purchase incentives agreed upon between the manufacturer and the FSMC.

   Upon receiving a purchase order, the food manufacturer sent the food to the distributor
   designated by the FSMC for the area covered by the purchase order. The distributor would
   distribute the food to the FSMC’s SFAs, and send the invoices and usage reports to the FSMC
   corporate headquarters. The FSMC corporate headquarters in turn sent payment on the invoices,
   less any prompt payment discounts, to the distributor, and usage reports and a billing for the
   incentives to the food manufacturer. The food manufacturer then sent payment of the purchase
   incentives to the FSMC corporate headquarters. Meanwhile, the FSMC school food service
   sector sent monthly billings consisting of the cost of food, beverages, and/or supplies per the
   distributor invoices, labor, and administrative and/or management fees, to the SFA. The SFA
   then sent payments for the billings to the FSMC school food service sector.

   USDA/OIG-A/27601-15-KC                                                                                   Page 19
Exhibit E – State Agency Policies and Procedures over SFA Procurement
                                                                          Exhibit E – Page 1 of 4


         POLICIES AND PROCEDURES
                 DURING PERIOD                  POLICIES AND PROCEDURES AFTER
STATE     JULY 1998 – DECEMBER 2001                          DECEMBER 2001
AZ      The suggested pro forma contract The State agency encourages (but does not
        did not mention purchase incentives. require) that contracts specify that all purchase
                                               incentives go to the SFA.
CT      The suggested pro forma RFP did The State agency reviews SFA contracts but
        not mention purchase incentives.       does not review if purchase incentives are
                                               covered.
FL      The sole SFA signed its contract The State agency has issued a new required
        before participating in the NSLP.      pro forma contract that provides that all
                                               purchase incentives go to the SFA.
ID      The State agency used the checklist The State agency created an addendum for
        in the FNS 1995 guidance for SFAs. new contracts that specifies all purchase
                                               incentives must go to SFA.
KS      At the time that the only SFA’s The pro forma RFP required by the State
        contract was awarded for the school agency provides that costs paid by the SFA
        year ended June 30, 2002, the State shall be net of all incentives, but the required
        agency was not aware that language pro forma contract does not mention
        regarding     purchase      incentives incentives. This State agency said that they
        needed to be in the contract.          have since been informed that OMB advises
                                               that SFA contracts with FSMCs are exempt
                                               from OMB Circular A-87 requirements.
MA      The State agency used the FNS 1995 In the last 2 years, the State agency has sent
        guidance.                              recommended language for treatment of
                                               incentives to its SFAs. However, the SFAs
                                               are not required to use it.
MI      The State agency required its pro The State agency required RFP/IFB becomes
        forma RFP/IFB to become the the binding contract. The required RFP/IFB
        binding contract.       The required requires the FSMC to credit the SFA’s food
        RFP/IFB requires the FSMC to service account monthly for all discounts,
        credit the SFA’s food service rebates, and allowances received by the FSMC
        account monthly for all discounts, from the purchase of goods and services made
        rebates, and allowances received by on behalf of the SFA. The SFA is responsible
        the FSMC from the purchase of to ensure the FSMC is complying with the
        goods and services on behalf of the contract. A requirement for the SFA to do
        SFA. The SFA is responsible to quarterly internal reviews was effective for the
        ensure the FSMC is complying with 2002-2003 school year.
        the contract.




USDA/OIG-A/27601-15-KC                                                                 Page 20
Exhibit E – State Agency Policies and Procedures Over SFA Procurement
                                                                              Exhibit E – Page 2 of 4


       POLICIES AND PROCEDURES
              DURING PERIOD                   POLICIES AND PROCEDURES AFTER
STATE JULY 1998 – DECEMBER 2001                            DECEMBER 2001
MN    The State agency used the FNS 1995 In their letter of July 11, 2003, the State agency
      guidance.                           stated that during the last 2 years, it had developed
                                          an addendum, which must be signed by both the
                                          SFA and the FSMC, and be on file at the State
                                          Agency in order for the SFA to participate in the
                                          NSLP. The addendum, dated February 19, 2003,
                                          provides that the FSMC shall charge the SFA only
                                          for actual costs net of all purchase incentives.
MO    The State Agency used the checklist A State agency official wrote that their initial
      from the FNS 1995 guidance.         understanding was that the FSMC could charge
                                          costs only to the extent that they are allowable
                                          costs, net of all purchase incentives. The State
                                          agency was in the process of requiring SFAs to
                                          adopt an addendum to the contract that contained
                                          this language when they were contacted by some
                                          FSMCs. The FSMCs stated that their legal
                                          counsel had been in contact with USDA
                                          concerning this provision and the FSMCs
                                          maintained that the language did not apply to
                                          FSMC contracts with SFAs. The State agency
                                          then contacted the FNS Regional office, which
                                          stated that USDA did not have the authority to
                                          require this provision in the contracts. The FNS
                                          Regional office told the State agency that OMB
                                          had determined that its circular requirements for
                                          net costs (i.e., allowable costs must be net of all
                                          purchase incentives) do not apply to costs charged
                                          under the SFA contracts with FSMCs. The State
                                          agency official said that due to this information,
                                          the State agency does not review the contracts for
                                          treatment of incentive language and considers the
                                          responsibility for ensuring free and open
                                          competition on the contracts to be that of the
                                          SFAs.




USDA/OIG-A/27601-15-KC                                                                     Page 21
Exhibit E – State Agency Policies and Procedures Over SFA Procurement
                                                                              Exhibit E – Page 3 of 4



          POLICIES AND PROCEDURES
                  DURING PERIOD                  POLICIES AND PROCEDURES AFTER
   STATE JULY 1998 – DECEMBER 2001                             DECEMBER 2001
   NH    The State agency used the FNS A State agency official stated that the
         1995 guidance.                         contracts they are making now do address the
                                                purchase incentive issue, and that this
                                                information has been addressed in the
                                                contracts within the last several years.
   NJ    FSMCs are required to register and A State agency official said that FSMCs are
         send a “core contract” to the State expected to take advantage of local trade
         agency and to note any changes to discounts and pass cost reductions on to
         this contract for individual SFA SFAs.
         contracts.
   OH    The State agency used the FNS In a November 2002 memo to SFAs, the
         1995 guidance.                         State agency stated that contracts that allow
                                                purchase incentives to go to the FSMC are
                                                prohibited, and that any current contracts
                                                with those provisions must be changed as of
                                                the next renewal or procurement action to
                                                read that all incentives go to the SFA.
   OR    Oregon Administrative Rule, dated SFA contracts awarded after the school year
         1999, states that all rebates and ended in 2002 require only that operating
         discounts received by the FSMC expenses shall be net of any incentives
         from a third party must be refunded obtained from third parties for food,
         to the SFA. The State agency stated beverages, merchandise, and supplies
         in their letter to us that it required procured solely (emphasis added) for the
         SFAs to use its pro forma RFP and SFA’s nonprofit food service. Also, one
         contract that provide that all SFA’s contracts for 2 school years ended in
         purchase incentives are to go to the 2003 and 2004 specifically excluded cash
         SFA. However, all but one of the discounts relating to payment terms and
         contracts awarded during the audit volume rebates paid to the FSMC as a result
         period did not mention any of FSMC corporate purchasing arrangements
         treatment of purchase incentives. and not exclusively relating to products or
         One contract excluded purchase items used on behalf of the district.
         incentives        from       corporate
         purchasing programs from being
         included in the requirements for
         incentives to be refunded to SFA.




USDA/OIG-A/27601-15-KC                                                                     Page 22
Exhibit E – State Agency Policies and Procedures Over SFA Procurement
                                                                              Exhibit E – Page 4 of 4

                   POLICIES AND
              PROCEDURES DURING
                       PERIOD                   POLICIES AND PROCEDURES AFTER
  STATE   JULY 1998 – DECEMBER 2001                         DECEMBER 2001
  RI      The State agency policy is that the After a Management Evaluation by FNS
          SFAs follow Federal regulations.    disclosed some major concerns with the FSMC
                                              contract process, the State agency updated its
                                              contract review process in June 2002. The State
                                              agency decided to let existing contracts run
                                              their course and require its pro forma RFP and
                                              contract, issued in February 2003, for new
                                              contract awards. The pro forma RFP and
                                              contract now require the FSMC to pass along to
                                              the SFA all of the purchase incentives received
                                              on the FSMC’s purchases on behalf of the
                                              SFA’s food service. The contract requires the
                                              FSMC to document all incentives received on
                                              their monthly invoices to the SFA. Note: a
                                              third FSMC stated that it would show all the
                                              incentives received but will also bill the SFAs
                                              for the amount of the said incentive.
  VT      The State agency provided pro A State agency official said that they began
          forma RFP and pro forma contract reviewing the contracts for treatment of
          did    not     mention    purchase purchase incentives after Office of Inspector
          incentives.                         General (OIG) requested contract information
                                              in our June 18, 2003, letter. The official said
                                              that they had not reviewed the contracts for the
                                              treatment of purchase incentives before our
                                              letter.
  WA      The State agency provided pro A State agency official stated that 7 CFR
          forma RFP and contract checklist 210.19(a)(6) does not allow the State agency to
          did    not     mention    purchase approve contracts; it only allows them to review
          incentives.                         contracts. The official also stated that 7 CFR
                                              210.16 does not grant the State agency the
                                              authority to require that contracts specify
                                              purchase incentives be passed back to the SFAs.
  WI      The State agency provided pro The State agency obtained advice from their
          forma IFB, contract, and contract FNS Regional office that the State agency
          checklist did not mention purchase should wait on USDA to provide guidance
          incentives.                         concerning the treatment of incentives. The
                                              State agency reviews the SFAs’ RFPs and
                                              contracts.

USDA/OIG-A/27601-15-KC                                                                     Page 23
Exhibit F – FNS Response to the Draft Report
                                               Exhibit F – Page 1 of 2




USDA/OIG-A/27601-15-KC                                      Page 24
Exhibit F – FNS Response to the Draft Report
                                               Exhibit F – Page 2 of 2




USDA/OIG-A/27601-15-KC                                      Page 25
Glossary of Terms
Billback                         -   The amount a distributor “bills back” to a manufacturer
                                     representing the difference between the price the distributor paid
                                     the food manufacturer for an item and the lower price negotiated
                                     between the FSMC and the food manufacturer. For example, the
                                     food manufacturer negotiates with the FSMC to allow the
                                     approved distributor to bill back to a price of $9 on the volume
                                     sold to the FSMC. On a direct sale to the distributor at the
                                     highest bracket delivered price of $12, the manufacturer earns
                                     $12 per case. On the volume sold to the FSMC, the distributor
                                     bills back $3 per case, so the manufacturer nets $9, as agreed.
                                     The price to the FSMC is the net $9, plus freight and the
                                     distributor’s markup to the FSMC.

Cost-plus-a-fixed-fee contract   -   A contract that provides for the SFA to reimburse the FSMC for
                                     its costs plus a fixed amount per meal for administrative and/or
                                     management fees.

Fixed-price contract             -   A contract that provides for the SFA to pay the FSMC a
                                     contractual rate per meal for certain categories of meals (e.g.,
                                     reimbursable lunches).

Discount                         -   A reduction from the full or standard amount of a price or debt.

Rebate                           -   A deduction from an amount charged or a return of part of a price
                                     paid.




USDA/OIG-A/27601-15-KC                                                                         Page 26
Informational copies of this report have been distributed to:

Administrator, Food and Nutrition Service
  Director, Grants Management Division               (8)
Office of the Chief Financial Officer
  Director, Planning and Accountability Division     (1)
Government Accountability Office                     (1)
Office of Management and Budget                      (1)
